Before the Joint Committee on Transportation
183rd General Court
Commonwealth of Massachusetts



For Release on Delivery
Expected at
10:30 a.m. EST
                          Water Leaks Within the
Thursday
December 2, 2004          I-93 Tunnels of the Central
CC-2005-005
                          Artery Project




                          Statement of
                          Debra S. Ritt
                          Assistant Inspector General for Surface
                           and Maritime Programs
                          U.S. Department of Transportation




                                   1
Mr. Chairmen and Members of the Committee:

We appreciate the opportunity to testify today on water leaks in the I-93 section of
the Central Artery Tunnel Project (Project). The Central Artery is the most
expensive highway construction project in United States history, and one that is
important to Massachusetts and all of New England.

Our office has a continuing role in reviewing the use of Federal funds on this
Project. As Congress directed in 2001, the Secretary of Transportation must
withhold obligations of Federal funds and all Project approvals until we determine
that the annual Finance Plan update for the Central Artery reflects the total
revenue requirements and financial resources needed to complete the Project.

It is well known that the Project has had a troubled history of significant schedule
delays and cost increases. The Central Artery was originally estimated to be
completed by December 1998—7 years earlier than the current estimate of
September 2005. Costs have also steadily escalated from $2.6 billion to
$14.625 billion, causing Congress to cap the Federal investment in the Project at
$8.549 billion. As of September 2004, all but $81 million of Federal monies have
been obligated.

In a previous audit, we reported that Project managers made misrepresentations by
not fully disclosing $1.4 billion of cost increases in the 1998 and 1999 Finance
Plans.1 The Securities and Exchange Commission found that the Massachusetts
Turnpike Authority (Authority) and its former Chairman violated the Securities
Act of 1933 on three municipal bond offerings. After making changes in its
management, the Authority has been responsive to our recommendations on full
cost and schedule disclosure in the annual Finance Plan updates and we have
reported this to Secretary Mineta and the Congress.

As the Project is entering the final construction stages, the Authority has reported
that 700 tunnel leaks remain in the Project’s current inventory and that the earlier
number of leaks it identified and tracked was considerably more. Authority
officials have said some of the leaks are a normal part of the construction process,
while others are construction deficiencies. It is already clear that the September
15th leak was not a normal occurrence.

There is much about this problem that we do not yet know, including how many
leaks there are and their severity; how much it will cost to fix the leaks; and, how
you can be assured that the responsible parties, not the taxpayers, are made to bear
1
    Report Number TR-2000-088, “Central Artery / Ted Williams Tunnel Project Highlights Need for
    Effective Federal Oversight,” U.S. Department of Transportation, Office of Inspector General, June 7,
    2000. OIG reports can be accessed on our website: www.oig.dot.gov.


                                                      2
the repair costs. Additionally, the problems surrounding the leaks involve
multiple parties—the Authority itself, its project oversight manager
(Bechtel/Parsons), and the construction contractors, each of whom have vested
interests that will be affected by determining responsibility and, accordingly, their
financial liability.

The imperative is how to identify the nature and extent of the leak problems, how
and why they occurred, implementing an appropriate and lasting solution, and
doing so in a manner that the responsible parties (not the taxpayers) bear the
burden. In our opinion, the Authority itself, along with its internal and external
experts, has the technical capacity to identify the extent of the leaks and take
corrective action to make the appropriate repairs. But, we also believe that
taxpayers and people who use the Artery must have confidence, from an
independent party, that the Authority has taken these actions with all due
diligence.

As for the questions of determining which entities may have responsibility, the
costs they will assume, and ensuring that taxpayer interests are protected, we have
reservations on how this can be done through existing arrangements and given the
interests of the parties involved. For example, we do not yet know the extent to
which errors or omissions in the design, construction, quality assurance, or
oversight may have contributed to the leaks. Determining this responsibility has
implications for the liabilities of the parties involved.

The Authority itself may ultimately bear some responsibility. Its oversight
consultant, which handled certain design elements and quality assurance functions,
cannot reasonably be considered completely objective. Then there are the
contractors involved in all project phases. Finally, the cost recovery team is also
associated with the Authority and has stated that it has had difficulty in obtaining
relevant documentation and, perhaps as a result, its cost recoveries to date have
been somewhat disappointing.

Therefore, as the Committee deliberates on how best to address this set of issues,
one option for consideration is the creation of a small, independent, bipartisan
commission, of limited duration, to report back its findings no later than June 30,
2005. The commission would be charged with determining the responsible parties
and ensuring that they bear the costs of the leaks and not the taxpayers. In
addition, the commission could oversee or help to ensure that the authority’s
efforts to identify and appropriately fix the leaks proceed with due diligence. In
carrying out is duties, the commission could coordinate its actions, as appropriate,
with the Commonwealth’s Attorney General.




                                         3
We note that final completion of the project’s I-93 tunnel segments is currently
scheduled for September, 2005. Accordingly, we would also recommend that the
Authority withhold final acceptance and not release funds held in retainage until
these matters are resolved.

We also understand that the Administrator has directed FHWA to review the
technical issues associated with the tunnels’ design and construction and the
resultant September wall panel breach as well as leaks where the roof girders
connect to the panels. In addition, it will also perform a legal review of contract
and financial documents to ensure taxpayers are adequately protected from any
additional charges associated with identification and repair of the breach and
leaks. We believe these steps will complement whatever proposals this
Committee may choose to adopt.

The remainder of our testimony will focus on the information we know, based on
our fact finding to date. Essentially, I will focus on four main questions:

   •   How many leaks have occurred and are they significant?
   •   Why are we just hearing about these problems?
   •   Who will pay to repair the leaks?
   •   What should the plan be for tackling this problem?

The Number and Significance of the I-93 Leaks

As early as 2000, the Authority, Bechtel/Parsons, and the Federal Highway
Administration noted that leaks in the I-93 tunnels were occurring more frequently
and at a higher rate than expected. We found that over the past 4 years, the
Authority has cataloged a large number of leaks in the I-93 tunnels associated with
the roof and wall interfaces and leaks in two of the slurry wall panels.
Approximately 700 leaks were in the Project’s current inventory as of last month.
However, the Authority has not completed work to determine the likelihood of
additional leaks or the recurrence of leaks that have been repaired.

The major leak reported on September 15th of this year involved a defective wall
panel constructed by Modern Continental Construction Corporation (Modern
Continental)    that   adjoins    another    wall    panel    constructed    by
Perini/Kiewit/Cashman (Perini). This leak occurred in the same wall panel where
a leak had been reported in July 2001. Seven more defective wall panels have
recently been found nearby.

The remaining known leaks are located where roof girders connect to wall panels.
According to the Authority, these leaks may have been caused by ineffective


                                        4
waterproofing or errors related to the design of the roof interface as well as the
design of the panel walls. There are approximately 40,000 points in the I-93
tunnels that the Authority is inspecting to determine whether there are leaks of this
nature.

Authority officials have said that many of the I-93 leaks are normal and that some
leaks are to be expected when tunnels are constructed below the water table, as
occurred on this Project. A 1996 article written by two Parsons Brinkerhoff
employees working on the Project explained that leakage can occur at wall
connections because the sides of the wall next to the soil cannot be waterproofed
and imperfections in the concrete permit groundwater seepage.2 We are not
suggesting that the selection of the slurry wall method was a mistake. This
method was selected, among other reasons, because it would allow vehicles to use
the elevated highway while the tunnel construction proceeded directly below.

Because some water flow is expected, a tunnel owner will establish maximum
permissible water flow criteria. The Project has established a permissible water
flow criteria of 0.8 to 1 gallon per minute per 1,000 linear feet of tunnel3—a
standard that is consistent with those of the San Francisco Bay Area Rapid Transit
and Los Angeles County Metropolitan Transportation authorities. However, water
flow can be expected to exceed this amount during construction as tunnels take in
water through uncovered ramps, unfinished roofs, openings around beams that
hold up the elevated highway, and unsealed utility conduits. According to the
Authority, the most recent flow measured in the tunnels was 7 gallons per minute,
which is below the maximum expected 16 gallons per minute (calculated using the
Project’s criteria for the entire tunnel) and considerably less than the 300 gallons
per minute that was experienced in the September leak.

We believe the Authority’s optimistic statements about the significance of the
leaks may be premature because much is still unknown. In explaining the nature
and severity of the leaks in the I-93 tunnels, we will discuss each type of leak in
turn—those related to the wall panel and those that affect the roof.

Defects in the Wall Panel and Lack of Oversight Were Apparent Causes of
the September Leak

On September 15, 2004, a leak breached the east wall of the I-93 northbound
tunnel just south of Congress Street and about 70 feet below the surface of
Atlantic Avenue. According to U.S. Department of Transportation leakage


2
  Should Slurry Walls Be Part of the Final Structure?, PB Network, Brian Brenner and Valery Gelfer, Fall
1996, Issue No. 36, Volume X, Number 3.
3
  There are 16,000 linear feet of tunnel. As a result, the permissible water flow is 16 gallons per minute.


                                                     5
criteria, a severe leak has an active flow of 30 or more drips per minute. The
September leak had a water flow of roughly 300 gallons per minute.

The breached wall is made of concrete panels that were built using the slurry wall
trench excavation technique. As the trench was excavated, it was filled with a
special clay mix, called slurry, to support the earth around the trench. Deep
structural steel piles were placed vertically in the trench, 4 to 6 feet apart. Once
the excavation was complete, concrete was pumped into the trench from the
bottom up with flexible pipes called “tremies” and the slurry was gradually
displaced.

Two experts retained by the Authority—Mueser Rutledge Consulting Engineers
(Mueser Rutledge) and Lemley & Associates (Lemley)—are reviewing the leaks
in the I-93 tunnels. In a November 3, 2004, report, Mueser Rutledge concluded
that the breach was caused by a series of construction deficiencies documented
during the fabrication of the panel that leaked. According to Mueser Rutledge, the
investigation for more defective panels is still on-going and a list of all suspect
panels is expected by next month. According to the Authority, Lemley has not
issued any reports.

We found that Bechtel/Parsons reported that a leak in the same wall panel had
occurred on July 20, 2001. Construction progress records from that period
revealed that Modern Continental, according to Bechtel/Parsons and Mueser
Rutledge, made a string of errors during the construction of the concrete panel
where the leak occurred.        Specifically, the Mueser Rutledge review of
Bechtel/Parsons’ construction records found:

   • Before excavation, the contractor failed to remove the temporary steel
     endplate placed at the adjoining concrete panel built by another contractor,
     as well as the residual concrete around the endplate.

   • The trench was not properly cleaned of debris at the completion of the
     excavation for the panel, or debris fell into the panel just before or during
     placement of the concrete. The inclusion of debris diminished the
     structural integrity of the panel.

   • Because of an obstruction, the contractor could not install a steel
     reinforcing cage that according to specifications had to span the length of
     the panel within the concrete. The contractor reduced the size of the cage
     rather than remove the obstruction.




                                         6
   • The obstruction prevented the contractor from using two tremie pipes to lay
     the concrete as required by the contract. Using only one pipe caused an
     uneven distribution of the concrete in the trench.

   • The bottom of the cage shifted out of position during concrete placement.

   • Finally, during the tunnel excavation, a leak and debris inclusion were
     discovered in the slurry wall, but workers patched the defect, rather than
     remove the inclusion and permanently repair it.

Whether the September breach is a one-of-a-kind event or a harbinger of systemic
problems in the tunnel walls remains an open question. The engineering surveys
of the tunnel walls by Mueser Rutledge and Lemley are ongoing, and results are
due soon.

In addition, according to an engineer with a section designer, engineers found two
slurry wall panels with inclusions (including the one that breached on September
15th). As of November 30, they had checked 22 more panels and found 7 with
defects. Engineers will continue this process until they have inspected all 10,000
wall panels in all contract sections of the I-93 tunnels.               Separately,
Bechtel/Parsons is now conducting an investigation of the other concrete wall
panels in the tunnel section where the leak occurred to determine whether they
comply with contract specifications.

Systemic I-93 Roof Leaks Are Due to Unfinished Construction, Lack of
Oversight, Waterproofing Deficiencies, or Possible Design Errors

As stated previously, the majority of the leaks have occurred where the roof
girders connect to the slurry wall panels throughout the I-93 tunnels. According to
the Authority, these leaks, if not corrected in a timely manner, could corrode steel
beams and electrical wiring. Currently, the Authority is monitoring approximately
40,000 connection points in the tunnels where the roof girders interface with the
tunnel walls. The Authority has also hired a third engineering consultant, Ben C.
Gerwick, Inc., to concentrate specifically on the roof leaks.

We found evidence to suggest that the roof leaks may be associated with the
selection and installation of waterproofing systems. Construction documents
indicated that the Project was experiencing waterproofing problems in the latter
part of the 1990s. In a positive step, the Project established a Waterproofing Task
Force in March 1997 to address problems being experienced with several of the
Project construction contracts.




                                         7
In its July 31, 1997, report, the task force attributed 95 percent of the Project’s
waterproofing problems to unsatisfactory quality control practices of the
construction contractors. The report did not, however, address the adequacy of
quality assurance, which is the responsibility of Bechtel/Parsons. The task force
also found that waterproofing systems had not been adequately prepared and
installed, and reported that the Project would continue to have problems unless
contractors changed their surface preparation and installation practices. Finally,
the task force recommended eliminating future use of two waterproofing systems,4
which had already been installed on segments of the I-93 tunnels, but were not
working.

In a December 2001 draft report5 on Project cost overruns, Project officials had
determined the original design of the waterproofing above the roof girders in one
section of the I-93 tunnels provided insufficient protection against leaks. To
address this issue, the original design specifications were later amended to require
the application of waterproofing spray over an area greater than originally
specified and the installation of a protective board.

In 2000 the Project established a Leak Task Force composed of representatives
from Bechtel/Parsons, FHWA, and the Authority to develop a response plan for
the leaks in the I-93 tunnels. The task force identified leaks in seven segments of
the tunnels. It found that the leaks seemed to be directly proportional to rainfall,
suggesting that it was not the ground water that was penetrating the tunnels, but
water originating in the area above the tunnel roof. Because construction of I-93
was not finished, the tunnels remained partially open to the weather, taking in
water through uncovered ramps, unfinished roofs, openings around beams that
held up the elevated highway, and unsealed utility conduits.

Why Are We Just Hearing About These Problems?

Although the leaks were known several years earlier, the catalyst for the current
focus was the September 15th leak which, according to press accounts, created a
10-mile traffic back-up. The Authority is now bringing in experts to review the
construction of the wall panels and examine the roof-wall interfaces. However,
we found that problems with the breached wall panel had been noted several years
earlier by Bechtel/Parsons. For example:

      • Multiple deficiencies were noted in Modern Continental’s excavation of the
        trench and construction of the slurry wall by Bechtel/Parsons during its
4
    The Bentonite and Cold-Applied Polyurethane waterproofing systems—two of five waterproofing
    systems used on the Project.
5
    Central Artery/Tunnel Project Review and Assessment of C15A2 Global Contract Modification, Deloitte
    & Touche, December 2001.


                                                    8
      quality assurance reviews. However, Mueser Rutledge did not find any
      documentation that showed Bechtel/Parsons addressed these deficiencies,
      for example, ensuring that Modern Continental rebuilt the wall according to
      specifications.

   • As early as June 1998, construction records documented running water and
     seepage in both the Modern Continental segment and an adjoining wall of
     the I-93 tunnels constructed by Perini. However, Modern Continental
     patched the leaks and continued construction without evaluating the full
     extent of the problem.

   • In December 2001, Modern Continental sent a report to Bechtel/Parsons
     advising that a leak in the same slurry wall panel had been discovered.
     Bechtel/Parsons responded to the contractor’s report by instructing Modern
     Continental to undertake testing and to draft a plan to repair the leak. But
     the paper trail ends there—neither the Authority nor Bechtel/Parsons could
     provide documentation to indicate that testing was done, a repair plan was
     drafted, or that the repair was completed and approved.

As noted earlier, construction documents indicated that the Project was also
experiencing waterproofing failures in the 1990s on other tunnels, and these issues
continued as the I-93 tunnels were being constructed. The Waterproofing Task
Force’s July 1997 report identified a number of actions that were needed to
prevent recurrences. However, it is not clear whether the task force’s
recommendations were implemented.

It is apparent that the Project had problems with waterproofing in the tunnel being
constructed by Perini/Kiewit/Cashman up through 2002. According to a
Bechtel/Parsons field engineer who oversaw contractors’ work on several sections
of the tunnel, when they succeeded in plugging wall leaks, proceeding from the
bottom of the tunnel towards the roof, the water was pushed upward and out of the
roof joints instead. They then attempted to waterproof the wall from the roof
down, but a good seal where the wall and roof met could not be achieved. Grout
was later injected into the leak areas. When that did not work, a sealant was
placed on the surface, but the water leaks went around the seal. Another
engineering firm suggested using a different compound. This compound was tried
for a while, but leaks reappeared. Bechtel/Parsons also found that the corrosion
protection on the steel beams was degrading from contact with water and had to be
reapplied. Project workers took about 30 months, from December 1999 to the
summer of 2002, to find a sealant that appeared to plug the leaks.

FHWA has been involved in the I-93 tunnel leaks and waterproofing issues since
the mid-1990s. For example, in May 1997, it presented an “inspection-in-depth”


                                        9
report on the waterproofing activities of the Perini/Kewit/Cashman contract. The
purpose of FHWA’s report was to evaluate the contractor’s waterproofing
submittals, contract drawing details, and the waterproofing systems already in
place. In addition, FHWA participated in both the Waterproofing and Leak Task
Forces, and assisted the Authority in its analysis of the September 15th leak.

Steps Must Be Taken to Protect Taxpayers

Sufficient steps must be taken to prevent the taxpayers from being saddled with
the cost of the leaks. Bechtel/Parsons has said that many leak repairs were
anticipated and pose no threat to the Project’s budget. However, final costs will
depend on how many leaks there are, their severity, the cost to repair, and whether
leak-related costs—such as damage to electrical components—exist beyond the
repair work. Key to protecting the taxpayer will be resolving the uncertainty about
who is ultimately responsible for the leaks.

At this time, work is still on-going and the ultimate cost is not known. Some of
the construction contractors are repairing the leaks at their own expense, including
Modern Continental who has been repairing the faulty wall panel. According to
the Authority, it has spent approximately $7 million over the last 3 years for leak
repairs, all of which was paid to McCourt/Obiyashi, the tunnel finishing
contractor. Recently, the Authority stated it has identified costs related to leak
repairs of almost $17 million. However, it stated it has yet to charge the
responsible construction or oversight contractors for these costs.

We also identified a modification where a contractor who was responsible for
repairing leaks at his own expense had submitted a $2 million claim for leak
repairs. We are still determining whether the Authority accepted this claim.
Whether this should be part of the amount that the Authority will seek to recover
needs to be explored further, but it does indicate that there very well could be
more costs than the $17 million the Authority quoted.

In addition to the cost of fixing the leaks, other related costs should not be passed
on to the taxpayer. These include the cost of the three consultants recently hired to
assess the leak damage as well as the replacement of damaged wall panels,
electrical components, and insulation; reapplication of waterproofing systems; and
constant monitoring and patching of the leak sites. To date, the Authority has not
identified or quantified all of these costs.

In 1994, the cost recovery program came into existence and since that time has
been managed by two different teams. After 8 years of cost recovery efforts the
first team recovered only $30,000. However, the second team has made greater
progress by recovering $3.5 million out of $744 million worth of items identified.

                                         10
These results are anemic considering that the team has closed approximately 70
percent of the 735 items identified for cost recovery. Included in the closed items
are 13 leak-related change orders, for which the team determined there was no
contractor liability. Given the current focus on the leaks, the team is reevaluating
its earlier decisions.

The tunnel contracts contain financial safeguards to ensure contractors
satisfactorily complete all outstanding construction issues before final acceptance
is granted. To date, the Authority states it has withheld 5 percent of each
contractor invoice and is supposed to release these funds after final acceptance
approval. None of the construction contractors involved in the leaking tunnel
sections have been granted final approval, although we still have not determined
whether any of these funds have been released.

Users of the Artery and Taxpayers Must Have Confidence in Any
Solution

The Commonwealth must move expeditiously in identifying a solution. If the leak
problems are not resolved before the Project’s scheduled completion in September
2005, the Commonwealth may be saddled with significant maintenance and repair
costs. Should leaks occur after the Authority has accepted the contractors’ work
and their respective warranty periods have lapsed, then it will become a continuing
expense for the taxpayers.

However, as we have outlined in our testimony, much is still unknown. We have
differing counts of how many leaks there are, and have heard ranges from 700 to
something significantly more. Have some been double-counted or even counted at
all? This needs to be determined, and that should be the first order of business by
the Authority. We have also heard conflicting statements, even within the
Authority, of whether the majority of the leaks are construction deficiencies or
design issues.

The Authority is on the right track to identify the extent of the leaks and the
necessary corrective action. However, the problems surrounding the leaks involve
multiple parties. As stated earlier, each party involved may have different
interests at stake in how these issues are ultimately resolved.

As the Committee deliberates on how best to address this set of issues, one option
for consideration is the creation of a small, independent, bipartisan commission, of
limited duration, to report back its findings no later than June 30, 2005. The
commission would be charged with determining the responsible parties and
ensuring that they bear the costs of the leaks and not the taxpayers. In addition,
the commission could oversee or help to ensure that the authority’s efforts to

                                        11
identify and appropriately fix the leaks proceeds with due diligence. In carrying
out is duties, the commission could coordinate its actions, as appropriate, with the
Commonwealth’s Attorney General.

At a minimum, the following questions should be addressed:

   • What are the precise number and severity of the leaks and are more likely
     to occur or re-occur?

   • What are the causes of the leaks and who is responsible? Why was
     construction allowed to continue when deficiencies were noted in the slurry
     wall panel?

   • What is the total amount that has been spent on leak repairs, waterproofing
     and other related costs and how much has been charged back to responsible
     parties?

   • What will be the continuing maintenance cost to manage future leaks and
     are these costs in excess of what was expected?

   • Has the Cost Recovery Team sufficiently identified the leak-related costs
     that should be recovered?

We note that final completion of the project’s I-93 tunnel segments is currently
scheduled for September, 2005. Accordingly, we would also recommend that the
Authority withhold final acceptance and not release funds held in retainage until
these matters are resolved.

Mr. Chairman, this concludes my prepared statement. I would be pleased to
address any questions you or members of the Committee may have.




                                        12
